May 28, 2008

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Status of Intelligent Mail Enabling Infrastructure
         (Report Number DA-AR-08-005(R))

This report presents the results of our self-initiated audit of the status of Intelligent Mail
(IM) enabling infrastructure (Project Number 08YG005DA000). Our objectives were to
evaluate the readiness of the key mail processing equipment (MPE), the status of nesting
abilities, the progress of the Mail Processing Infrastructure (MPI) Phase III, and the status
of the Integrated Data System (IDS)/National Directory Support System (NDSS) server
consolidation program. Click here to go to Appendix A for additional information about this
audit.

Conclusion

Intelligent Mail Infrastructure Support Implementation

We determined that management has upgraded key letter and flat MPE and the MPE is
capable of scanning the new Intelligent Mail barcode (IMB). In addition, more than 300
U.S. Postal Service facilities have been upgraded with increased network capacity due to
the early completion of Phase III of the MPI program. Therefore, these IM components
are ready to support IM implementation.

The Postal Service material handling group is taking proactive steps to prepare for the
transition to the 24-digit IM tray barcode, which will enhance nesting abilities. However,
clarification of requirements is needed to ensure material handling systems fully support
future IM programs. Click here to go to Appendix B for our detailed analysis of this topic.

We recommend the Senior Vice President, Intelligent Mail and Address Quality, in
coordination with the Vice President, Engineering:

1. Clarify the 24-digit barcode requirements and funding for material handling systems.
Status of Intelligent Mail Enabling Infrastructure                                                  DA-AR-08-005(R)




Adherence to Integrated Data System/National Directory Support System
Consolidation Schedule Critical

The IDS/NDSS server consolidation program Decision Analysis Report (DAR) approval
and deployment schedule is critical to IM implementation. The program must be on
schedule in order to support future IM programs. However, in the event there is a
schedule slippage, the Postal Service has devised a contingency plan which consists of
establishing month-to-month maintenance contracts for both legacy systems. If
maintenance suppliers are unable to serve remote facilities, the Postal Service will use
National Remote Processing Computers (NRPC).1 These micro-computers would replace
failed units on an emergency basis, until management deploys new servers. However, the
expected service life and maintenance agreement for the micro-computers will expire in
2009. Therefore, management needs to consider extended maintenance contracts for
these NRPCs or develop other contingency plans. Click here to go to Appendix B for our
detailed analysis of this topic.

We recommend the Senior Vice President Intelligent Mail and Address Quality, in
coordination with the Vice President, Engineering:

2. Ensure contingency plans for the Integrated Data System/National Directory Support
   System server consolidation program include extended maintenance for
   microcomputers or provide for other appropriate contingency plans if deployment is
   delayed beyond 2009.

Management’s Comments

Management agreed with the recommendations. In response to recommendation 1,
management highlighted key actions. For the first action, Intelligent Mail and Address
Quality, in conjunction with Engineering, finalized the specifications for the 24-digit tray
label. This was completed and made available to customers on May 16, 2008. For the
second action, Engineering will use existing funds to upgrade material handling systems to
read the 24-digit tray label in time for the May 2009 offering date.

To address recommendation 2, management plans to establish monthly maintenance
contracts for legacy systems before January 2009 if deployment is delayed. Management
also plans to extend NRPC maintenance coverage at remote processing locations beyond
2009.

Management’s comments, in their entirety, are included in Appendix D.



1
 The NRPC is a microcomputer-based system that provides the IDS data collection functionality for MPE at remote
processing facilities. It also provides functionality at those sites that do not have a co-located NDSS computer. The
NRPC was purchased in late 2004 and has a 5-year maintenance agreement and expected service life.




                                                            2
Status of Intelligent Mail Enabling Infrastructure                       DA-AR-08-005(R)



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should resolve
the issues identified in the report.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick R. Donahoe
    Scott R. Bombaugh
    Shahpour Ashaari
    Steve M. Dearing
    Katherine S. Banks




                                                     3
Status of Intelligent Mail Enabling Infrastructure                           DA-AR-08-005(R)



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service presented the IM Corporate Plan in 2003 to explain their OneCode
Vision. OneCode Vision refers to an information-rich code on all mail, aggregates of mail,
and business forms that enables end-to-end visibility into the mail stream. The plan
identifies three key strategies for achieving this vision: (1) uniquely identify mail and
aggregates, (2) develop and deploy enabling infrastructure, and (3) enhance address
quality. This audit evaluates aspects of the second strategy of the corporate plan.

Infrastructure is the hardware, software, telecommunications system, power, data wiring,
and associated support necessary to underpin business applications. The information-
sharing requirements of a successful IM effort depend upon suitable infrastructure being in
place where needed, when needed. The IM program focuses on the infrastructure
components that are (a) not currently in place or are in need of upgrading and (b) critical to
successfully creating a knowledge-based IM system.

In evaluating the IM infrastructure, the key components to consider are the mail platforms
which are being upgraded to accommodate IM data capture and collection; visibility of mail
by tracking (nesting); the upgrade of plant data wiring (MPI program); and the upgrade and
consolidation of the IDS and NDSS. IDS is the resource for the collection and distribution
of mailpiece, tray, and container tracking data and NDSS maintains all mail processing
sort programs and address directory files.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to evaluate the readiness of key MPE, the status of nesting abilities,
the progress of the MPI Phase III, and the status of the IDS/NDSS server consolidation
program.

To accomplish our objectives, we interviewed Engineering personnel to determine the
minimum software version required for IMB readiness of each MPE designed to read the
IMB. We interviewed maintenance personnel to determine whether they released the
applicable software to the field. We consulted with OIG experts to determine the
appropriate methods for accurately evaluating the readiness of key MPE. Also, we
consulted with IM Planning and Standards personnel to develop testing of key MPE to
determine their capabilities for capturing IM scanned barcode data. Subsequently, we
obtained and analyzed test results from scanned data compiled nationally by site, machine
type, and automated area distribution center (AADC) after barcode tests were developed.

Additionally, we analyzed documentation and interviewed program management and
Marketing and IM personnel regarding the status of nesting abilities, completion of Phase
III of the MPI program, and the progress of the IDS/NDSS server consolidation program.




                                                     4
Status of Intelligent Mail Enabling Infrastructure                                                 DA-AR-08-005(R)



Further, we obtained data from the IDS and Electronic Maintenance Activity Reporting and
Scheduling System (eMARS)2 databases to evaluate the MPE’s capabilities for scanning
data from the IMB. Previous OIG reports related to these systems did not reveal
weaknesses that would impact our audit.

We conducted this performance audit from November 2007 through May 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on April 15, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior OIG audits or reviews related to the objectives of this audit.




2
  The eMARS is a computerized maintenance management information system that provides field maintenance
personnel with the ability to schedule maintenance and personnel, track labor and material costs, maintain a spare parts
inventory, and report on maintenance.




                                                           5
Status of Intelligent Mail Enabling Infrastructure                                        DA-AR-08-005(R)



                                 APPENDIX B: DETAILED ANALYSIS

Key Mail Processing Equipment Ready for Implementation

Letters and flats MPE are ready for implementation of the IMB. Since 2003, the IM
Planning and Standards team has been compiling a weekly report from national IMB scan
data obtained from the IDS group. We worked with IM analysts to develop two tests to
evaluate whether key MPE was capable of reading and reporting the IMB. The testing
criteria for the two tests are listed in Table 1:

                          Table 1. Testing Criteria for IM Barcode MPE Readiness

         Testing Criteria                            Test One                            Test Two
Type of Data Extracted                 All national IMB scans               Destination Confirm mailings
Source of Data                         IDS                                  Confirm
Type of MPE Tested                     IM-related MPE universe              IM-related MPE universe
Type of Mailings Examined              Letters and flats                    Letters and flats
Reporting Category                     By machine type, area, and site      By AADCs
                                       (office name)
Period of Time Tested                  One full month of data - Nov. 2007   One full month of data - Nov. 2007
Purpose of Testing                     To determine whether MPE,            To determine whether applicable
                                       nationwide, is capable of scanning   MPE is able to process IMB scans
                                       IMB
Category of Exceptions Noted           MPE not reporting scans              AADCs not reporting scans




                                                       6
Status of Intelligent Mail Enabling Infrastructure                                                   DA-AR-08-005(R)




                                       Test One – IDS National Scans

The data for Test One was compiled from IMB scans reported nationally from upgraded
MPE3 during November 2007. As indicated in Table 2, Test One results show the IMB
scan counts per machine type and site for letter and flats mailings. Also, machines not
reporting IMB scans during the same timeframe were identified.

                          Table 2. Total National IM Barcode Scan Counts from IDS
                                              in November 2007

                                                      Number of
                                                     Machines with Percentage of Number of
                                          Number of No IMB Scans Machines Not IMB Scans
                     Machine Type4        Machines     Reported     Reporting    Reported
                     AFSM100                     530             8           1.5  12,685,372
                     CIOSS                           278                  0              0.0     49,096,828
                     CSBCS                         2,664                  1              0.0    153,225,160
                     DBCS                          3,734                  7              0.2    714,054,449
                     DBCSEC                             1                 0              0.0          52,797
                     DBOCR                              8                 0              0.0      1,682,764
                     DBOSS                           884                  1              0.1    164,390,769
                     DIOSS                           807                  2              0.2     98,938,108
                                                                                            5
                     UFSM1000                        281                 40            14.2          918,596
                     WFOVMP                          182                  3              1.6     21,275,292
                     Grand Total                   9,369                 62              0.7 1,216,320,135

Only equipment upgraded with the proper software release can properly process IMB
scans. Therefore, Test One concluded:

     •    1.2 billion IMB scans were reported nationally.
     •    Key MPE were capable of reporting IMB scans.
     •    99.3 percent of the IMB-related MPE universe reported scan activity.
     •    0.7 percent of MPE did not report IMB scans.6




3
  Identified under ‘Machine Type’ in Table 3.
4
  See Glossary in Appendix C for MPE descriptions.
5
  UFSM1000 has the ability to operate in the manual keying mode where data is not reportable via IDS. Without the 14.2
percent figure for UFSM1000s, the percentage of non-reporting machines would decrease significantly. However, we
can not determine what portion of the 14.2 percent may be due to the lack of upgraded MPE.
6
  There are factors other than lack of software upgrades (e.g., insufficient IMB mail volume) that could be attributed to a
machine not reporting IMB scans for a month. Thus, these machines are not necessarily incapable of processing IMB
scans.




                                                            7
Status of Intelligent Mail Enabling Infrastructure                                      DA-AR-08-005(R)




                                   Test Two – Destination Confirm Scans

The data for Test Two7 was compiled from Destination Confirm scans from three test
mailers during November 2007, as well as mailings prepared by the National Customer
Support Center during the same period. The test data breakdown was by AADC. This
test was developed to analyze scans from the Confirm mailings and to determine if the
IMB is being read and reported nationally for all AADCs. Test Two results showed that:

      •    60.1 million Confirm scans were reported nationally.

      •    The four mailers reported Confirm scans matching their unique mailing from
           virtually all AADCs.

      •    Exceptions (not reporting scans) noted were minor events. They were:

           (1) Two Air Mail Facilities (AMFs) – These sites are military mail processing
               facilities which are unlikely to have IMB mail.

           (2) Two AADCs – Exceptions could be due to both facilities processing limited
               amounts of mail or no mail being processed because of their unique situations.
               During our testing, we determined these two sites were offline (no connectivity
               to the reporting network).

           (3) Three additional AADCs that did not report any IM barcode scans for flat
               mailings. However, the mailer’s presence in these AADCs is very minimal and
               we do not consider these to be errors.

Therefore, both tests confirmed the scanning capability of both letters and flats by site,
machine type, area, and AADC. Furthermore, the tests confirmed that appropriate
software upgrades were installed with at least the minimum software version on MPE
enabling adequate reading of the IMB. Through these two tests, we were also able to
conclude that the MPE was scanning the IMB and the IDS is adequately collecting and
transmitting scanned data.




7
    See glossary in Appendix C for more detailed descriptions of testing terminology.




                                                              8
Status of Intelligent Mail Enabling Infrastructure                                                   DA-AR-08-005(R)



Postal Service is Taking Proactive Role in Nesting Readiness

The 2003 IM Corporate Plan states that, to the extent that it can be done economically,
one-to-one nesting8 information will be captured. As mailpieces are collected into trays,
knowing which mailpiece is in which tray enables the visibility of the individual pieces to be
maintained by tracking those trays. These nesting capabilities support future IM program
requirements.

The Postal Service has proposed that customers display their mailings’ nesting relationship on
electronic manifests. For these mailings, the manifest will list each container, the trays in each
container, and the unique mailpiece identifier number within each tray. According to mailer
feedback, there is a concern about the additional investment costs in producing these manifests
without knowing the return on investment. Most of the concerned mailers currently use Multi-Line
Optical Character Readers (MLOCRs).9 However, the Postal Service is presently taking
measures to work with vendors to ensure that software is developed for MLOCR users to enable
the generation of the electronic manifests.

We determined that some of the IMB-related tools capable of capturing nesting data are
the: (1) Intelligent Mail Data Acquisition System (IMDAS), which are hand-held scanners
capable of capturing the container, tray, and mailpiece IMB; (2) key MPE evaluated during
this audit, which are capable of scanning the IMB; (3) Material Handling Systems, which
can read the 10/24-digit transitional IMB tray labels and are being surveyed to prepare for
the 24-digit IMB tray labels; and (4) Surface Visibility scanners, which have the ability to
scan IMB container labels.

In further evaluating Postal Service nesting abilities, we interviewed the Postal Service’s
material handling group to determine the ability of material handling systems to scan the
IMB tray and container labels. We determined that all robotics and tray management
systems are capable of reading the 24-digit IM tray label barcode. Also, all standard low
cost tray sorters deployed during and after Phase I of the surface visibility program are
capable of reading the 24-digit IM tray label barcode. However, the remainder of the
material handling fleet is currently not capable of reading the IMB.

Presently, all material handling equipment is capable of reading the 10-digit portion of the
10/24-digit barcode label. Although there are no requirements set for upgrading
equipment to scan the 24-digit IM tray barcode, we commend the Material Handling Group
for proactively mitigating the transition to a 24-digit IM tray barcode environment.
Specifically, they have initiated a survey of the current fleet of material handling/fixed
mechanization systems to determine the extent of work necessary to ensure these
systems can support the 24-digit IM tray barcode. Their proactive measures should
reduce the risk of operational disruptions in the event of a full transition from the 10/24-
digit tray barcode format to the 24-digit only format. However, material handling systems

8
  Nesting is defined as the association of handling units (tubs, trays, sacks) to a container (rolling stock—general purpose
mail containers, universal mail containers, hampers, and pallets).
9
  See Appendix C for further description of MLOCR.




                                                             9
Status of Intelligent Mail Enabling Infrastructure                                                DA-AR-08-005(R)



may not be fully ready to support the complete transition to a 24-digit tray label without
clear technical requirements and support funding.

MPI Program, Phase III, Ready for Implementation

Prior to the MPI Program, the data wiring bandwidth in most mail processing plants was
incapable of accommodating new business applications. However, implementation of this
program resolved the critical shortcoming in plant bandwidth by installing networks to
maximize performance, as well as ensure integrity of the data traffic required for IM. MPI
replaced copper wiring with fiber optic cables to provide an extremely high data
communication capacity. MPI also uses a configuration of digital switches to segment the
local area network into a collection of small sub-networks.

We determined that management completed deployment of MPI, Phase III, in September
2007, about 3 months ahead of schedule and $8 million10 below the DAR-approved
budget. The total number of sites to be upgraded in MPI, Phase III, was 166 (158
processing and distribution centers [P&DCs] and eight remote encoding centers [RECs]).

Engineers conducted a final inspection and test of the MPI system before accepting it to
assure optimal performance. Checklists used for testing upgraded sites show each site
successfully passed technical requirements. Program management of MPI Phase III
stated there are still plants and RECs that management has not updated. However,
selection criteria were used to identify sites with the greatest need, which was determined
based on the number of network connected machines and data communication
requirements. High-priority sites have been upgraded and are ready for IM program
implementation.

Adherence to IDS/NDSS Consolidation Schedule Critical

IDS is the resource for the collection and distribution of mailpiece, tray, and container
tracking data as well as mail processing and machine status data from all automated mail
processing and material handling equipment. It is also a system for IMD compilation for
several Postal Service systems. The IDS is currently capable of collecting and
transmitting scanned data, as evidenced by our earlier test analyses of the readiness of
key MPE.

Both the IDS and NDSS have reached end-of-life status and replacement is planned via
the IDS/NDSS server consolidation program in order to sustain current operations. The
January 7, 2008, DAR projects a contract award for the program in May 2008 and
deployment from January to July 2009.



10
  According to MPI Phase III Program management and the DAR, $3.7 million in contingency funding was not used.
Even though this amount is included in the $8 million surplus amount, the program was still completed under budget.




                                                          10
Status of Intelligent Mail Enabling Infrastructure                       DA-AR-08-005(R)



Schedule slippage would become critical in late 2009 due to the deployment of other IM-
related programs. However, in the event of a schedule slippage, the Postal Service has
already devised a contingency plan. The plan consists of establishing month-to-month
maintenance contracts for both legacy systems. If monthly maintenance contracts are
unable to serve the legacy systems at remote facilities, they will use NRPC systems.
These micro-computers would replace failed units, on an emergency basis, until
management deploys new servers. However, the expected service life and maintenance
agreement for the micro-computers will expire in 2009. Therefore, management needs to
consider extended maintenance contracts for these NRPCs along with other potential
contingency plans.

We also determined the Postal Service has prepared for future expansion of the
IDS/NDSS servers. The anticipated platform will consolidate the two systems into one
cabinet and allow additional servers to be added for future program expansion and more
network capabilities.

Additionally, during our fieldwork we noted a concern relating to IDS data discrepancies.
As of March 2008, IDS data discrepancy issues amounted to 3 to 4 percent of IMB scans.
To remedy the situation, the Postal Service developed software fixes which are
undergoing testing. As a result, we conclude the IDS/NDSS server consolidation program
will be ready for IMB implementation within the program schedule.




                                                     11
Status of Intelligent Mail Enabling Infrastructure                                             DA-AR-08-005(R)



                                 APPENDIX C: GLOSSARY OF TERMS

                                        Terminology Used in Appendix B

                 Term                                                    Description
10/24-Digit (transitional) Tray Label     The Postal Service developed a transitional label that includes both
                                          a 10-digit barcode and a new 24-digit IM tray barcode. This short-
                                          term strategy allows the Postal Service to incrementally upgrade its
                                          infrastructure to recognize the final 24-digit IM tray label.
24-Digit Tray Label                       The tray barcode will be required on letter trays, flat trays, and
                                          sacks. Unlike the current 10-digit tray barcode that only contains
                                          routing information, the 24-digit IM tray barcode includes additional
                                          fields to identify the mailer and uniquely number each tray or sack.
Automated Area Distribution Center        An AADC is a mail processing facility that receives, processes, and
(AADC)                                    distributes mail destined for specific ZIP Code areas under the
                                          Managed Mail Program.
Container Label                           The IM container barcode will be required on all containers used to
                                          transport mail. This 21-digit IM container barcode includes fields to
                                          identify the mailer and uniquely number each container.
Destination Confirm Service               Allows mailers to uniquely identify and receive an electronic
                                          notification with mail processing data for outgoing mailpieces.
Electronic Uncoded Address                The eUARS generates a mailing when a customer submits a change
Resolution System (eUARS)                 of address with a new address that cannot be matched to a ZIP+4 in
                                          the Address Management System database and when uncoded
                                          Address Element Corrections are created.
Intelligent Mail Barcode (IMB)            The 65-bar IMB, which accommodates 31 digits of data, is used to
                                          sort and track letters and flats.
Intelligent Mail Data Acquisition         The IMDAS hand-held scanners support tracking mailpieces, unit
System (IMDAS) scanners                   loads, transportation, inventory, and performance operations.
Move Validation Letter (MVL)               The MVL is sent to a customer's old address by the National
                                           Customer Service Center immediately upon receipt of electronically
                                           transmitted change of address information.
Multiline Optical Character Reader        The MLOCR allows licensed users, using automation-compatible
(MLOCR)                                   mail, to automatically check names and addresses against a
                                          national Postal Service database that contains only permanent
                                          changes of address as their mail is processed.
Remittance Mailing                        A payment which is typically in the form of a check mailed in a
                                          Courtesy Reply Envelope by way of First-Class Mail®.
Robotics System                           Tray loading system that automatically sorts and loads sleeved,
                                          strapped, and open mail trays/tubs into mail containers or onto
                                          pallets.
Surface Visibility Scanners               Wireless, hand-held devices that collect real-time data at the
                                          handling unit (sack, tray, tub), container, and trailer levels in order to
                                          track volume throughout the surface transportation network.
Tray Management System                    A custom-engineered transportation and information system that
                                          automates the movement of trays of mail within a plant.




                                                        12
Status of Intelligent Mail Enabling Infrastructure                                           DA-AR-08-005(R)




                                Terminology for Key MPE for Letter/Flat Mail

Acronym               MPE                                                Description
AFSM         Automated Flats Sorting       A fully automated flats sorting machine designed to streamline flats
100          Machine 100                   mail processing.
CIOSS        Combined Input Output         Provided as a kit upgrade to DBCS machines (both standard and
             Subsystem                     Extended Capability) and provides full DIOSS functionality. It is also
                                           configured with the Wide Field of View (WFOV) camera system.

CSBCS        Carrier Sequence              The first piece of computerized mail sorting equipment designed for
             Barcode Sorter                use at delivery units.

DBCS         Delivery Barcode Sorter       A multilevel, high-speed barcode sorter which sorts mail in carrier
                                           walk sequence, eliminating the need for additional sorting at the
                                           delivery unit. The DBCS uses the WFOV camera system, which is a
                                           barcode reader that performs image capture and processing of
                                           multiple barcodes, including the IMB.

DBCSEC       Delivery Barcode Sorter       The DBCSEC has expanded capabilities allowing it to sort taller,
             Extended Capability           thicker mail employees would normally sort by hand.

DBOCR        Delivery Barcode              A DBCS enhanced with Optical Character Reader capability which
             Sorter/Optical Character      can locate and read addresses on mail that bypasses the Advanced
             Reader                        Facer Canceller System.

DBOSS        Delivery Barcode              The DBCS/OSS applies PostNET barcodes and sorts the letters into
             Sorter/Output                 cartridges. Also, see DBCS description above.
             Subsystem

DIOSS        Delivery Barcode Sorter       See DBCS description above.
             with Input Subsystem
             and Output Subsystem
UFSM         Upgraded Flats Sorting        Machine that can sort flat mailpieces that are beyond the size range
1000         Machine 1000                  of the AFSM 100s.

WFOVMP       Wide Field of View Mail       These are stand-alone WFOV cameras that are add-ons to the Mail
             Processing Bar Code           Processing Bar Code Sorter/Output Subsystem machines
             Sorter




                                                        13
Status of Intelligent Mail Enabling Infrastructure             DA-AR-08-005(R)



                           APPENDIX D: MANAGEMENT’S COMMENTS




                                                     14
Status of Intelligent Mail Enabling Infrastructure        DA-AR-08-005(R)




                                                     15
